No.

Supreme Court of the United States
Jermaine Tyrone Jones Petitioner,
vs.

United States of America, Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit
Appendix

Appendix A
Opinion of the United States Court of Appeals for the Sixth Circuit,
United States v. Jones, 953 F.3d 433 (6th Cir. 2020)
(March 23, 2020). App. 1-8

Appendix B
Memorandum Opinion and Order of the United States
District Court for the Western District of Kentucky Denying
United States' Motion to Reconsider (May 10, 2020) App. 9-13

Appendix C
United States' Motion to Reconsider (December 3, 2018) App. 14-16

Appendix D
Memorandum Opinion and Order of the United States
District Court for the Western District of Kentucky Granting
Petitioner's Motion to Suppress (November 5, 2018) App. 17-25

Appendix E
Uniform Citation App. 26

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1 (b)
File Name: 20a0088p.06

UNITED STATES COURT OF APPEALS
FOR THE SDCTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellant,

>

No.19-5633

V.

JERMAINE TYRONE JONES,
Defendant-Appellee.

Appeal from the United States District Court
for the Western District of Kentucky at Paducah.
No. 5:17-cr-0003 9-1—Thomas B. Russell, District Judge.

Argued: March 12,2020
Decided and Filed: March 23, 2020
Before: SUTTON, McKEAGUE, and DONALD, Circuit Judges.

COUNSEL
ARGUED: Amanda B. Harris, UNITED STATES DEPARTMENT OF JUSTICE, Washington,
D.C, for Appellant. Frank W. Heft, Jr., FEDERAL PUBLIC DEFENDER, Louisville,
Kentucky, for Appellee. ON BRIEF: Amanda B. Harris, UNITED STATES DEPARTMENT
OF JUSTICE, Washington, D.C., for Appellant. Frank W. Heft, Jr., Scott T. Wendelsdorf,

FEDERAL PUBLIC DEFENDER, Louisville, Kentucky, for Appellee.

OPINION

SUTTON, Circuit Judge. Officers stopped Jermaine Jones' vehicle to investigate
allegations that he committed fourth-degree assault, a misdemeanor in Kentucky. During the
stop, they discovered a weapon on Jones, a convicted felon. Indicted for unlawful possession of

v 1

No. 19-5633 United States v. Jones Page 2

a firearm, Jones moved to suppress the evidence recovered from the stop on the theory that the
Fourth Amendment bars investigatory stops prompted by a completed misdemeanor. The district
court reluptantly agreed. Because the Fourth Amendment contains no such rule, we reverse.
I.

On April 30, 2017, Ti'Erica McKinney called the Paducah police department to report a
domestic violence incident. Several officers, including Andrew Parrish, arrived at the scene.
McKinney told Parrish that she had come home from work to find her ex-boyfriend, Jermaine
Jones, inside her house. She asked Jones to leave. When he refused, they began arguing.
Matters got out of hand. Jones poured dish detergent over her couch, then chased her out of the
home. Once outside, Jones threw Sprite cans and a bottle of dish soap at McKinney as she ran

for help. IVIcKinney dodged the cans but did not evade the bottle of dish soap. McKinney
eventually returned to see William Snipes, Jones' friend, driving Jones away in a white "Tahoelike vehicle with a long body." R.37 at 2.
Officer Parrish took steps to corroborate McKinney's story. He questioned her about

reports that other people had come to her aid. McKinney admitted that her brothers had arrived
before the police but left when Jones fled to avoid dealing with the authorities. Around the
house, Officer Parrish saw items consistent with McKinney's account. He found a soap-stained
couch and a bottle of detergent on the floor. He also spotted Sprite cans near McKinney's
vehicle and noticed damage to the car. In her front yard, he located the bottle of dish soap that

had hit McKinney's back. When McKinney showed Officer Parrish her injury, he pointed out
that he could not see any bruising but acknowledged it might take a few days for the harm to
show.

Consistent with department policy. Officer Parrish and McKinney filled out a "Domestic
Violence Lethality Screen," a questionnaire to determine if an officer should refer a victim to

domestic violence resources. She told Officer Parrish that Jones had threatened to kill her in the
past, might try to kill her m the future, and could easily obtain a gun. McKinney elaborated that
Jones had strangled her and kicked in her front door. She repeatedly told Parrish, without

{kf'f-

No. 19-5633 United States v. Jones Page 3

prompting, that she planned to get an emergency protective order against Jones and that she
feared he would return to attack her once the officers left.
To allay McKinney's concerns. Officer Parrish stayed in his car next to the house and

finished up some paperwork. The caution paid off. Shortly after Officer Parrish finished up with
McKinney, he saw two black males in a white Chevy Suburban sitting at the intersection near
McKiimey's home. Parrish pulled the Suburban over and approached the passenger side, where
Jones sat. After a brief discussion, Parrish asked Jones to exit the vehicle and escorted him to
Pamsh's car. A quick pat-down of Jones revealed nothing. Asked about the incident, Jones
denied everything: the detergent, the Sprite cans, the dish soap. Parrish did not believe him and
arrested him for the assault. He cuffed Jones, conducted a second, more thorough, search, and

placed him in the back of his squad car.
Jones began yelling that Parrish had cuffed him too tightly. When Parrish checked the
cuffs, he spotted a firearm in the back of his cruiser that he had not seen before. That led to a
charge of unlawful possession of a firearm.
Jones moved to suppress the gun. Officer Parrish violated the Fourth Amendment, Jones
claimed, because he stopped the vehicle on the suspicion Jones had committed a crime. To make
a valid stop, Jones asserted, Parrish needed a reasonable suspicion of ongoing or imminent

criminal activity. At the hearing, Parrish confirmed that he had stopped Jones' vehicle solely to
"further investigate" McKinney's allegations of assault. R.30 at 7. In Kentucky, her accusation
amounted to fourth-degree assault, a misdemeanor. Ky. Rev. Stat. Ann. § 508.030(l)(a).
Relying on dicta from two of our decisions, the court "reluctantly" suppressed the
evidence. R.37 at 6-7. The government appealed.
II.

The Fourth Amendment protects "[t]he right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches and seizures." U.S. Const. amend. IV.

When an officer stops a vehicle and questions the occupants, even for a brief moment, that
counts as a "seizure" of "persons." Whren v. United States, 517 U.S. 806, 809 (1996). Officers

,.. 3

No. 19-5633 United States v. Jones Page 4

may conduct these stops if, among other justifications, "specific and articulable facts," Terry v.
Ohio, 392 U.S. 1, 21 (1968), support a reasonable suspicion that the car's "occupants are
involved in criminal activity," United States v. Hensley, 469 U.S. 221, 226 (1985). But what
happens if the officer stops a vehicle to investigate cruninal activity that ab-eady occurred? We
know the answer in part. If the activity qualifies as a felony, the Fourth Amendment does not bar
the stop. Id. at 229.
What about non-felony crimes? Does the Fourth Amendment prohibit officers from
making a Terry stop to investigate a misdemeanor? Attentive readers of Fourth Amendment
caselaw should be skeptical of such a standard. "[T]he touchstone of the Fourth Amendment is
reasonableness," not "bright-line rules." Ohio v. Robinette, 519 U.S. 33, 39 (1996). And the
Supreme Court has consistently rejected lower courts' attempts to avoid dealmg with "endless
variations in the facts and circumstances implicating the Fourth Amendment" by Grafting
"libnus-paper" tests or "single sentence or paragraph" rules. Id. (quotation omitted); see also
Hensky, 469 U.S. at 226-27.
The Court has given us some of the tools to answer the question already. Hensley
explained that the "proper way" to identify the "precise limits on investigatory stops to

investigate past criminal activity" is to "apply the same test akeady used to identify the proper
bounds of intrusions that further investigations of imminent or ongoing crimes." Hensley,
469 U.S. at 228. Courts must balance "the nature and quality of the intrusion on personal
security against the importance of the governmental interests alleged to justify the intrusion." Id.
Tme, Hensley left open whether "Terry stops to investigate all past crimes, however
serious, are permitted." Id. at 229. But it did not erect an "automatic barrier" to investigating
completed misdemeanors either. Id. The Court left it to the lower courts to apply the traditional
Fourth Amendment considerations, rather than create an "inflexible rule" if and when the
question of investigating a completed misdemeanor (or other non-felony crime) came up. Id. at
227.
The Court's guidance has prompted every other circuit to follow the Hensley facts-andcircumstances test in considering the misdemeanor side of the problem. United States v. Hughes,

^f-

No. 19-5633 United States v. Jones Page 5

517 F.3d 1013, 1017-18 (8th Cir. 2008); United States v. Grigg, 498 F.3d 1070, 1076-77, 1081
(9th Cir. 2007); United States v. Moran, 503 F.3d 1135, 1141^3 (10th Cir. 2007). In doing so,
the circuit cases sometimes come out on the side of the government, Moran, 503 F.3d at 1143,

sometimes on the side of the defendant, Grigg, 498 F.3d at 1081-83; Hughes, 517 F.3d at 101819.
An across-the-board prohibition on stops to investigate completed non-felonies runs into
other problems, including the elusive and evolving nature of the felony-misdemeanor distinction
and its disappearance in some instances. While "in earlier times the gulf between the felonies
and the minor offences was broad and deep,.. . today the distinction is minor and often
arbitrary." Tennessee v. Garner, 471 U.S. 1, 14 (1985) (quoting 2 F. Pollock & F. Maitland, The

History of English Law 467 n.3 (2d ed. 1909)). Once upon a time, "felony" described the most
severe crimes. "No crime was considered a felony which did not occasion a total forfeiture of
the offender's lands or goods or both." Kurtz v. Moffitt, 115 U.S. 487, 499 (1885); see also
Garner, 471 U.S. at 13 n. 11. Today, serious crimes are usually felonies, but not always. In
Kentucky, where Jones' arrest occurred, it is a misdemeanor to incite a riot, possess burglar's
tools, stalk someone, or flee the police. Ky. Rev. Stat. Ann. §§ 508.150, 511.050, 520.100,
525.040. And the Commonwealth treats stealing mail, driving a car without permission (for the
second time), and receiving deposits at an insolvent fmancial institution as felonies. Id.
§§ 514.100, 514.140, 517.100. Some States leave the classification to prosecutors and judges.
See Ewingv. California, 538 U.S. 11, 17 (2003). The stalls of these "wobbler" crimes thus may
not be known until the crune is charged or the offender sentenced. Id. If our touchstone is
reasonableness, it's odd to say that police could stop a suspect on reports he had stolen mail but
not on reports he had incited a riot (or assaulted someone)—or that a valid stop to investigate a
felony becomes invalid if the prosecutor charges it as a misdemeanor. All of this confirms the
danger of using misdemeanor labels alone to define the coverage of the Fourth Amendment.
Treating the offense's misdemeanor label as an idee fixe and ignoring the interests at
stake also would not work for the States that have eliminated these distinctions. Take Maine,
which divides crimes into five classes. Me. Rev. Stat. Ann. tit. 17-A § 4. The only way to
decide how the Fourth Amendment applies to stops mvestigating a "Class A" or a "Class B"

Ape. 5

No. 19-5633 United States v. Jones Page 6

crune is to fall back on other principles—the risks to the community of the crime. And though
most States continue to use words like "felony" and "misdemeanor," many have added
new variants. Minnesota and Washington criminalize "misdemeanor[s]" and "gross
misdemeanor[s]." Minn. Stat. § 609.02; Wash. Rev. Code Am. § 9A.04.040. And Pennsylvania
separates out murders from felonies and misdemeanors. 18 Pa. Stat. & Cons. Stat. Ann.

§ 106(a)(l). A per se mle against investigating a certain class of crime offers no help in deciding
whether seizures related to these bottomless variations are reasonable.

The better mle in this setting is not bright in either direction. It does not say that officers
always may make a Terry stop of an individual known to have completed a misdemeanor, as
Hensley permits for completed felonies. And it does not say that officers never may make a
Terry stop of an individual known to have completed a misdemeanor. It instead falls back on
reasonableness, balancing the interests in public safety and personal liberty. The inquiry turns
not on whether the suspect already completed a crime. It turns on the nature of the crime, how

long ago the suspect committed it, and the ongoing risk of the individual to the public safety.
Under this approach, the Fourth Amendment correctly appreciates the distinction between
officers who illegitimately invoke Terry to stop someone who ran a red light sixth months ago
and legitimately use it to stop someone who assaulted a spouse in the past half hour.
These dynamics are captured in two questions. Did an officer stop a suspect to
investigate a completed felony? If yes, we move on to consider the reasonableness of the
officer's suspicion. If the offense goes by another name, we ask whether this stop for this

offense violates the Fourth Amendment. See Hughes, 517 F.3d at 1017; Grigg 498 F.3d at 1081;
Moran, 503 F.3d at 1142. Hensley tells us to consider several factors in balancing the security
and liberty interests. Does the stop "promote the mterest of crime prevention"? Hensley, 469
U.S. at 228. Does it further "[p]ublic safety"? Id. How strong is the government's interest in
"solving crimes and bringing offenders to justice" in this case? Id. at 229. And would
"[r]estrammg police action until after probable cause is obtained" unnecessarily hinder the
investigation or allow a suspect to "flee in the interim"? Id.
Gauged by these considerations, this stop passes. At the time he pulled Jones over,
Parrish had a reasonable suspicion that Jones had assaulted McKinney. He had corroborated

>4^a.. 6

No. 19-5633 . United States v. Jones Page?

almost every part of her account, and the car he saw matched her description. Stopping the
vehicle directly promoted the interest of preventing crime. McKmney credibly alleged that Jones
intended to harm her or her home.

The stop also promoted public safety. McKinney told the officer that Jones could get a
firearm easily, attacked her before, and recently fought with her brothers. Hailing down the
vehicle gave Parrish the chance to stop Jones from further violence and threats. By stoppmg
Jones' car to mvestigate McKinney's allegations of assault, misdemeanor or not, felony or not,
Parrish used common sense and acted in eminently reasonable fashion.
Jones resists this conclusion on two grounds.
He points us to three cases that say an officer may not conduct a Terry stop to investigate

a completed misdemeanor. Gaddis v. Redford Township, 364 F.3d 763, 771 n.6 (6th Cir. 2004);
United States v. Roberts, 986 F.2d 1026, 1030 (6th Cir. 1993); United States v. Halliburton, 966
F.2d 1454, 1992 WL 138433, at *4 (6th Cir. 1992) (table). But Halliburton is an unpublished
decision, which does not bind later panels. United States v. Sanford, 476 F.3d 391, 396 (6th Cir.
2007). And the cited language in Roberts and Gaddis is dicta, unnecessary to either outcome.
Later decisions of ours confirm the pomt. United States v. Collazo, 818 F.3d 247, 253-54 (6th

Cir. 2016); United States v. Simpson, 520 F.3d 531, 541 (6th Cir. 2008).
Tacking in a different direction, Jones says we should adopt a per se rule because it
accords with Kentucky law. Tme, Kentucky affords greater protections for its citizens when
officers investigate past crimes. See Ky. Rev. Stat. Ann. § 431.005(1). But its prerogative to
experiment with greater constitutional protections does not require the Fourth Amendment to do
the same. Virginia v. Moore, 553 U.S. 164,171 (2008); see Kansas v. Carr, 136 S. Ct. 633,641

(2016).
That leaves Jones' alternative argument—that we should affirm the district court because
Officer Parrish lacked probable cause to arrest hhn for assaulting McKinney. But probable cause

"is not a high bar." District of Columbia v. Wesby, 138 S.Ct. 577, 586 (2018) (quoting Kaley v.
United States, 571 U.S. 320, 338 (2014)). And Parrish cleared it. McKinney told Parrish that
Jones assaulted her. "Unless, at the time of the arrest, there is an apparent reason for [an] officer

^. 7

No. 19-5633 United States v. Jones Page 8

to believe [an] eyewitness was lying, did not accurately describe what he had seen, or was in
some fashion mistaken regarding his recollection of the confrontation," that accusation is

sufficient to establish probable cause. Ahlers v. Schebil, 188 F.3d 365, 370 (6th Cir. 1999)
(quoting United States v. Amerson, No. 93-6360, 1994 WL 589626, at *3 (6th Cir. Oct. 21,
1994). In this instance, Parrish had more than just McKinney's accusation. He had all of the
evidence around him corroborating her story. On top of that, the white Suburban pulled up to the
intersection at McKinney's home, just as she had predicted. Once Officer Parrish identified
Jones as the passenger, if not before then, his reasonable suspicion "developed into probable
cause" to make the arrest. United States v. Harflinger, 436 F.2d 928, 934 (8th Cir. 1970); see

Hoover v. Walsh, 682 F.3d 481, 500 n.53 (6th Cir. 2012).
Jones counters that Officer Parrish lacked probable cause because "it was not shown" that
McKinney had sustained a "physical injury"—an essential element of fourth-degree assault.
Appellee Br. 31. Jones is getting ahead of himself. Prosecutors, not arresting officers, must
prove elements of the offense. See Thacker v. City of Columbus, 328 F.3d 244, 256 (6th Cir.
2003). Parrish knew enough facts to conclude Jones had probably assaulted McKinney. She

described the pain she experienced and showed him plenty of evidence that confirmed the
incident. Although he did not see any bruising on her back, he reasonably inferred that it might
take time for bruises to show given how recently the attack occurred. Perhaps at trial, Jones

could show that McKinney had not suffered "physical injury" significant enough to satisfy
Kentucky's requirements. But at the point of arrest, the facts showed that Jones probably
engaged in criminal activity. Wesby, 138 S. Ct. at 586.
We reverse.

.4-fp-

Case 5:17-cr-00039-TBR Document 43 Filed 05/10/19 Page 1 of 5 PagelD #: 142

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
AT PADUCAH
CRIMINAL ACTION NO. 5:17-CR-00039-TBR

UNITED STATES OF AMERICA, PLAINTIFF
V.

JERMAINE TYRONE JONES, DEFENDANT
MEMORANDUM OPINION & ORDER
This matter is before the Court on the United States of America's Motion for
Reconsideration. (R. 41). The Defendant, Jermain Tyrone Jones, has declined to respond. This
matter is now ripe for adjudication. For the reasons that follow, the Court DENIES the United
States of America's Motion, (R. 41).

BACKGROUND1
On August 30, 2017, Paducah Police Officer Andrew Parrish responded to a disturbance
at Ms. McKinney's residence on Farwood Drive. Ms. McKinney explained to Officer Parrish
that her then boyfriend, and now Defendant, Jermain Jones had assaulted her by throwing a dish
soap bottle at her. Jones had since left with a friend in a white Chevy Suburban. Officer Parrish
decided to sit outside McKinney's house to write up the paperwork because McKinney had
expressed fears that Jones might retirn.
After Parrish had finished the paperwork and was getting ready to leave, he saw a white
Chevy Suburban with two black males inside of it sitting at the intersection adjacent to

* For a more detailed account of the events described herein refer to the Court's November 5, 2018 Memorandum

Opinion and Order, (R. 37).

1

Case 5:17-cr-00039-TBR Document 43 Filed 05/10/19 Page 2 of 5 PagelD #: 143

McKinney's house. (Supp. Hearing R. 7: ^ 1-19). Ms. McKmney having told Officer Parrish
multiple times that she was worried Jones would come back, and the vehicle matching
McKiney's description, Parrish got behind the Suburban and pulled it over. (Supp. Hearing R. 7:
^ 1-19). Upon pulling Jones over, Parrish arrested him. After placing Jones in the back of the
police car, Parrish found a Hi Point .380 caliber firearm in the back seat of his car alongside
Jones.

After, being charged as a felon in possession of a firearm, Jones moved to suppress all
evidence, including the Hi Point .380, from the warrantless stop, detention, and arrest on August
30, 2017. The Court held a hearing on the issue on July 23, 2018, at which Officer Pan-ish
testified that he pulled Jones over "to further investigate the allegations made by Ms.
McKinney."(Supp. Hearing R. 7: ^ 10). This piece of testimony was crucial to the Court's
conclusion that Officer Parrish conducted a Terry stop based on a completed misdemeanor,
which the Court, following Sixth Circuit guidance, was forced to find unreasonable under the
Fourth Amendment. Consequently, the Court granted Jones's Motion to Suppress. The United
States now moves the Court to reconsider. (R. 41).

STANDARD
Although the Federal Rules of Civil Procedure do not provide expressly for "motions for
reconsideration," courts generally construe such motions as motions to alter or amend a

judgment under Rule 59(e). E.g., Moody v. Pepsi-Cola Metro. Bottling Co., 915 F.2d 201,206
(6th Cir. 1990); Taylor v. Colo. State Univ., Civil Action No. 5:11-CV-00034-TBR, 2013 U.S.

Dist. LEXIS 52872, 2013 WL 1563233, at *8-9 (W.D. Ky. Apr. 12, 2013). Rule 59(e) motions
"must be filed no later than 28 days after the entry of the judgment." Fed. R. Civ. P. 59(e).

A^. 10

Case 5:17-cr-00039-TBR Document 43 Filed 05/10/19 Page 3 of 5 PagelD #: 144

Pursuant to Rule 59(e), "a court may alter the judgment based on: '(1) a clear error of law; (2)
newly discovered evidence; (3) an intervening change in controlling law; or (4) a need to prevent
manifest mjustice.'" Leisure Caviar, LLC v. U.S. Fish & Wildlife Serv., 616 F.3d 612, 615 (6th
Cir. 2010) (quoting Intera Corp. v. Henderson, 428 F.3d 605, 620 (6th Cir. 2005)). "A district
court, generally speaking, has considerable discretion in deciding whether to grant [such a]
motion, and as a result [the Sixth Circuit] review[s] these types of decisions for abuse of
discretion." Id. (citing Morse v. McWTiorter, 290 F.3d 795, 799 (6th Cir. 2002)).

DISCUSSION
The United States' Motion asks the Court to reconsider based on a single issue—whether
Officer Pamsh's stopped Jones as part of an mvestigation into an ongoing misdemeanor. (R. 41).
The United States' Motion is well taken.2 It is correct that if Officer Parrish was investigating an
ongoing misdemeanor, instead of a completed one, the stop might be reasonable under the Fourdi
Amendment. See United States v. Simpson, 520 F.3d 531, 541 (6th Cir. 2008) ("But reasonable
suspicion of an ongoing misdemeanor is adequate justification [to initiate a Terry stop].").
Indeed, the Court considered this possibility in coming to its original decision. But because
neither party had raised the issue, the Court left it unaddressed to avoid what would have,at that
point, been unnecessary dicta. The United States' Motion to Reconsider changes things. It
invites, indeed requires, the Court to determine whether Officer Parrish stopped Jones to
investigate an ongoing crime. The Court finds that he did not.

2 Although, the United States never explicitly identifies the grounds upon which they move the Court to reconsider,
the Court assumes the government bases their motion on the need to prevent manifest injustice. The Court
recognizes that "a motion to reconsider does not afford parties an opportunity to reargue their case." Zink v. Gen.

Eke. Capital Assurance Co., 73 Fed. Appx. 858, 861 (6th Cir. 2003); and see Sault Sfe. Marie Tribe ofChippewa
Indians v. Engler, 146 F.3d 367, 374 (6th Cir. 1998). The Court also realizes that this issue arguably should have
been raised m the United States' original briefing. However, the Court welcomes the opportunity to address the issue
now as one that it should have addressed on its own accord the first time around.

4pp. 11

Case 5:17-cr-00039-TBR Document 43 Filed 05/10/19 Page 4 of 5 PagelD #: 145

The United States argues that the factual circumstances support the position that Parrish
stopped Jones to investigate an ongoing misdemeanor. McKinney had voiced fears that Jones
would come back, which lead Officer Parrish to stay parked in front of her residence while he
finished his paperwork. While there, Officer Parrish spotted Jones inside a white Chevy
Suburban, as described by McKinney, stopped at a red light in the intersection adjacent to
McKinney's house. Parrish then pulled Jones over. The Court agrees with the United States that
these facts might plausibly support the position that Parrish pulled Jones over to investigate an
ongoing crime.

However, despite ample opportunity to do so while on the stand, Parrish never made
mention that he pulled Jones over to investigate an ongoing crime. Instead, Parrish testified that
he pulled Jones over to investigate the allegations made by Ms. McKinney. This statement could
be interpreted one of two ways: it could be interpreted to mean that Parrish pulled Jones over to
investigate McKinney's allegations of the completed domestic violence that had occurred earlier
that day, or it could be interpreted to mean that Parrish pulled Jones over to investigate
McKinney's allegation that Jones would likely return to Ms. McKinney's home, which Parrish
might have reasonably suspected to be an ongoing continuation of the earlier domestic violence.
However, the following exchange between Mr. Hancock and Officer Parrish makes the former
interpretation the more likely accurate:
Q. Officer Pan-ish, to sum this up, at the time that you initiated the traffic stop on the
vehicle that was operated by Mr. Snipes and Mr. Jones was the passenger, did you
believe that a crime had just taken place not long before at Ms. McKinney's
residence?
A. Yes, sir. If not, I would not have initiated that traffic stop.

3 Because the Court finds this interpretation ofParrish's testimony to be a stretch too far, the Court need not address
the many issues it might raise, such as whether domestic violence can be reasonably considered ongoing for such a

period of time so as to extend to when the alleged assailant has left the scene and is seen later sitting in traffic.

^p.

12

Case 5:17-cr-00039-TBR Document 43 Filed 05/10/19 Page 5 of 5 PagelD #: 146

Q. All right. And prior to you making the decision to place Mr. Jones under arrest for
assault fourth degree, domestic violence, did you believe that you had probable cause
to prove that Mr. Jones had committed that crime?
A. Again, yes, sir. If I did not believe that, I would not have effected that arrest.
Pamsh's testimony makes clear that Parrish believed a crime to have just taken place, and Jones
had committed it—not that a crime was ongomg, and Jones was committing it.
Frankly, the Court finds this issue to be an extremely close call, but it does follow
existing Sixth Circuit law. The court wrestled with it for some time. But ultimately, the Court
believes that the best window into why Officer Parrish pulled Jones over is his own testimony on
the subject. To find that Pamsh's stop of Jones was part of an investigation into an ongoing
misdemeanor would be to ignore the most plausible interpretation of his direct testimony at the
suppression the hearing. The Court is unwilling do so. Thus, although well taken, the Court must
deny the United States' Motion to Reconsider.

CONCLUSION
For the reasons stated above, IT IS HEREBY ORDERED that the United States of
America's Motion to reconsider is DENIED.
A telephonic further proceedings is set on May 17, 2019 at 9:00 a.m. Central, The Court
shall place the call.

IT IS SO ORDERED.

Thomas B» RusSelf, Senior Judge
IJnitieij States Distri<ct Coart
May 10, 2019

ec: Counsel of Record

l\pf.

13

Case 5:17-cr-00039-TBR Document 41 Filed 12/03/18 Page 1 of 2 PagelD#: 138

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
AT PADUCAH
UNITED STATES OF AMERICA PLAINTIFF
vs. CRIMINAL ACTION NO.: 5:17-CR-00039-TBR

JERMAINE TYRONE JONES DEFENDANT
PLAINTIFF'S MOTION TO RECONSIDER
(Electronically Filed)

This Court should reconsider its Memorandum Opinion and Order [DN 37] granting
Jermaine Jones' Motion to Suppress [DN 20]. Specifically, this Court should examine
whether Officer Pamsh's stop of Jones was a part of an investigation into an ongoing
misdemeanor offense, and, if so, whether reasonable suspicion supported the stop.

The Court's Memorandum Opinion and Order [DN 37, pgs. 123-125] accurately
summarized the relevant facts. Of particular note to this motion, the Court said "Parrish
also told McKinney [Jones' victim] that he would stay in the area and complete his
paperwork parked outside her house in response to her fears that Jones would come
back." [DN 37, pg 124 )citing Government's Ex. 2 - AXON_Body-Video 2017-0803_1236)]. As the Court also discussed, Officer Parrish was still inside his car outside
the victim's residence when, as she predicted, the vehicle she believed Jones would be
in appeared at the intersection adjacent to the victim's home. [DN 37, pg. 124 (citing
Supp. Hearing R. 7: ^1-19)]. Those facts support a determination that a crime was
ongoing and that Officer Parrish had reasonable suspicion to believe that Jones had

^ 14

Case 5:17-cr-00039-TBR Document 41 Filed 12/03/18 Page 2 of 2 PagelD #: 139

returned to attack McKinney again. Reasonable suspicion to believe that a crime is
ongoing is sufficient to warrant a seizure, like the investigatory stop in question here.
United States v. Simpson, 520 F.3d 531, 541 (6th Cir. 2008) (reasonable suspicion of
"any crime-no matter how minor," sufficient to justify a traffic stop).

The United States respectfully requests, based on the foregoing, that the court
reconsider its prior Memorandum Opinion and Order m this case and deny Jones' motion
to suppress.

Respectfully submitted,

RUSSELL M. COLEMAN
United States Attorney
//s//SethA. Hancock
Seth A. Hancock
Assistant United States Attorney
501 Broadway, Room 29
Paducah, Kentucky 42001

PH: (270)443-2899
FAX: (270)444-6794

Email: seth.hancock@usdoi.ciov

CERTIFICATE OF SERVICE
I hereby certify that on December 3, 2018, I electronically filed the foregoing with
the clerk of the court by using the CM/ECF system, which will send a notice of electronic
filing to the following: Scott Wendelsdorf, Esq., Counsel for Defendant.

//s//Seth A. Hancock
Seth A. Hancock

Assistant United States Attorney

-2-

^f. 15

Case 5:17-cr-00039-TBR Document 41-1 Filed 12/03/18 Page 1 of 1 PagelD#: 140

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
AT PADUCAH
UNITED STATES OF AMERICA PLAINTIFF
vs. CRIMINAL ACTION NO.: 5:17-CR-00039-TBR

JERMAINE TYRONE JONES DEFENDANT

ORDER GRANTING PLAINTIFF'S MOTION TO RECONSIDER
(Electronically Filed)

The Court, having considered Plaintiff's Motion to Reconsider; Defendant's
Response thereto; and being sufficiently advised;

IT IS HEREBY ORDERED THAT the court has reconsidered its prior
Memorandum Opinion and Order [DN37] in this case; and

IT IS FURTHER ORDERED that Plaintiff's Motion to Reconsider is granted and
Jermaine Jones' Motion to Suppress is denied [DN20].

ec: USAO (SH)
Counsel of Record

^ 16

Case 5:17-cr-00039-TBR Document 37 Filed 11/05/18 Page 1 of 9 PagelD #: 122

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
AT PADUCAH
CRIMINAL ACTION NO. 5:17-CR-00039-TBR

UNITED STATES OF AMERICA, PLAINTIFF
V.

JERMAINE TYRONE JONES, DEFENDANT
MEMORANDUM OPINION & ORDER
This matter is before the Court on Defendant Jermaine Tyrone Jones's Motion to
Suppress. (R. 20). Jones seek to suppress all evidence, including a Hi Point .380 caliber firearm,
directly or indirectly obtained from his warrantless stop, detention, and arrest on August 30,
2017. (R. 20). The Court conducted a suppression hearing on July 23, 2018. The United States
produced evidence through the direct testimony ofPaducah Police Officer Andrew Parrish. Jones
produced his evidence through cross-examination of Officer Parrish. Both Parties introduced as
evidence video footage from Officer Parrish's body camera.
At the suppression hearing's conclusion, the Court ordered additional briefing on the
matter. Accordmgly, Jones has filed Defendant's Memorandum in Support of Motion to
Suppress (R. 35), and the United States has responded with its Memorandum in Opposition to
Defendant's Motion to Suppress. This matter is now ripe for adjudication. For the reasons that
follow, the Court GRANTS Jones's Motion Suppress. (R. 20).

Kfp. 17

Case 5:17-cr-00039-TBR Document 37 Filed 11/05/18 Page 2 of 9 PagelD #: 123

BACKGROUND
A. The Domestic Disturbance Call
On August 30, 2017, Paducah Police Officer Andrew Parrish responded to a disturbance
at Ms. Mckinney's residence on Farwood Drive. (Government's Ex. 1). Once there, Ms.

McKinney told Officer Parrish that she had been involved in a dispute with her ex-boyfriend,
Defendant Jermain Tyrone Jones. (Government's Ex. 2 - AXON_Body-Video 2017-08-

031236). She told Officer Parrish that she had arrived home from work to find Jones in her
home. (Government's Ex. 2 - AXON_Body-Video 2017-08-03J236). When McKinney asked
Jones to leave, he refused. According to McKinney, they then got in an altercation that resulted
in Jones throwing a dish soap bottle at her, which struck her in the back. (Government's Ex. 2 AXON_Body-Video 2017-08-03_1236). McKirmey then ran outside where Jones threw cans of
sprite at her. (Government's Ex. 2 - AXON_Body-Video 2017-08-03J236). McKinney said that
she was able to dodge the cans, but they had stmck and damaged her car. (Government's Ex. 2 AXON_Body-Video 2017-08-03J236). At this point, McKinney claims that she fled the
immediate area while calling the police. (Government's Ex. 2 - AXON_Body-Video 2017-0803_1236). When she got back, she witnessed Jones leaving in a "Tahoe-like vehicle with a long
body" driven by Mr. Snipes, Jones's friend. (Government's Ex. 2 - AXON_Body-Video 201708-03_1236). Upon Parrish probing McKinney's story, she added that at some point her brothers
had come and got into a physical altercation with Jones, but they too had left. (Government's Ex.
2 - AXON_Body-Video 2017-08-03J236). Officer Parrish informed McKinney that Jones was
legally considered a resident of the house and that if she wanted to him to leave, she would have
to go downtown to initiate a formal eviction process. (Government's Ex. 2 - AXON_Body-Video
2017-08-03_1236). Parrish further instructed McKinney that she would have to go downtown to

18

Case 5:17-cr-00039-TBR Document 37 Filed 11/05/18 Page 3 of 9 PagelD #: 124

press criminal charges against Jones. (Government's Ex. 2 - AXON_Body-Video 2017-08-

03J236).
Officer Parrish witnessed several pieces of evidence that corroborated McKirmey's story.
Sprite cans were strewn about the yard next to McKinney's vehicle, and her vehicle was
damaged. (Government's Ex. 2 - AXON_Body-Video 2017-08-03J236). McKinney's couch
was stained and smelled ofdetergent. (Government's Ex. 2 - AXON_Body-Video 2017-0803_1236). Parrish also found an empty dish soap bottle on the ground. (Government's Ex. 2 AXON_Body-Video 2017-08-03 J236). However, when McKinney showed her back to Officer
Parrish, there were no apparent injuries. (Government's Ex. 2 - AXON_Body-Video 2017-0803_1236). Officer Parrish noted that it might take some tune for bruising to occur.
(Government's Ex. 2 - AXON_Body-Video 2017-08-03_1236). No evidence was collected from
the residence.

At the end ofPamsh's interaction with McKinney, he completed a Domestic Violence
Lethality Screen for First Responders form for the Merryman House per Paducah Police
Department policy. (Government's Ex. 3). Parrish also told McKinney that he would stay in the
area and complete his paperwork parked outside her house in response to her fears that Jones
would come back. (Government's Ex. 2 - AXON_Body-Video 2017-08-03_1236).
B. Jones's Subsequent Stop
After Officer Parrish had gotten inside his car and was getting ready to leave, he saw a
white Chevy Suburban with two black males inside of it sitting at the intersection adjacent to
McKinney's house. (Supp. Hearing R. 7: <| 1-19). Ms. McKinney having told Officer Parrish
multiple tunes that she was worried Jones would come back, and the vehicle matching

A^, 19

Case 5:17-cr-00039-TBR Document 37 Filed 11/05/18 Page 4 of 9 PagelD #: 125

McKiney's description, Parrish got behind the Suburban and pulled it over. (Supp. Hearing R. 7:
K 1-19).
Upon pulling the Suburban over, Officer Parrish approached the passenger side of the
vehicle and identified the passenger as Mr. Jones, and the driver as Mr. Snipes. (Government's
Ex. 2 - AXON_Body-Video 2017-08-03_1308). Jones immediately made mention of an incident
with Ms. McKinney. Jones identified McKinney as his girlfriend. (Government's Ex. 2 AXON_Body-Video2017-08-03_1308).
Officer Parrish then asked Jones to exit the vehicle. (Government's Ex. 2 - AXON_BodyVideo 2017-08-03_1308). Jones reluctantly complied. (Government's Ex. 2 - AXON_BodyVideo 2017-08-03_1308). Parrish escorted Jones to Parrish's vehicle and did an initial search of
his person before proceeding. (Government's Ex. 2 - AXON_Body-Video 2017-08-03_1308).
Nothing was found. (Government's Ex. 2 - AXON_Body-Video 2017-08-03_1308). On the side
of the road next to Parrish s vehicle, Parrish questioned Jones about McKinney's allegations.
(Government's Ex. 2 - AXON_Body-Video 2017-08-03_1308). He denied everything—he
didn't know anything about the sprite cans, the detergent on couch, fighting with McKinney's
brothers, or throwing dish soap. (Government's Ex. 2 - AXON_Body-Video 2017-08-03J308).
Parrish then arrested Jones for fourth-degree assualt of Ms. McKinney. (Government's Ex. 2 -

AXON_Body-Video 2017-08-03J308).
Upon arrest, Jones was searched again. (Government's Ex. 2 - AXON_Body-Video

2017-08-03J308). Nothing illegal was recovered. (Government's Ex. 2 - AXON_Body-Video
2017-08-03_1308). Jones was then placed in the back ofPamsh's vehicle. After being in the
back of the car for several minutes, Jones began fidgeting. (Govemment's.Ex. 2 - AXON_Body-

Video 2017-08-03J308). When Officer Parrish opened the back door of the vehicle, Jones

^ 20

Case 5:17-cr-00039-TBR Document 37 Filed 11/05/18 Page 5 of 9 PagelD #: 126

started yelling that his hand cuffs were too tight. (Government's Ex. 2 - AXON_Body-Video
2017-08-03J308). When checking Jones's cuffs, Officer Parrish found a High Point .380
firearm in the back of his police car. (Government's Ex. 2 - AXON_Body-Video 2017-0803_1308). Jones was then taken out of the car and searched for a third time. (Government's Ex. 2
- AXON_Body-Video 2017-08-03_1308). He was less than cooperative. (Government's Ex. 2 -

AXON_Body-Video 2017-08-03J308).
C. The Suppression Hearing
Officer Parrish was the sole witness to testify at the suppression hearing, his testimony
reflected the events described above. (See generally, Supp. Hearing). However, one piece of
Pamsh's testimony is particularly relevant to the Court's analysis: Parrish testified that he
stopped the Suburban for no other reason than "to further investigate the allegations made by Ms.
McKinney." (Supp. Hearing R. 7: Tf 10).

DISCUSSION
Jones's Motion to Suppress presents two issues: First, whether Officer Pamsh's
investigative stop of Jones was lawful. (R. 35). Second, whether Officer Parrish had sufficient
probable cause to arrest Jones without a warrant. (R. 35). In post-hearing briefing, the United
States argues that the investigative stop was reasonable given Parrish's suspicion that Jones had
engaged in past crimmal conduct, and that Parrish had sufficient probable cause to arrest Jones
for fourth-degree assault. (R.36). Jones disagrees, arguing that the stop violated Terry v. Ohio,
392 U.S. 1 (1968) and its progeny, and that Officer Parrish knew he did not have sufficient
probable cause to arrest Jones. (R. 35).

21

Case 5:17-cr-00039-TBR Document 37 Filed 11/05/18 Page 6 of 9 PagelD #: 127

The Court will start with Pamsh's warrantless investigatory stop. Jones argues that the
stop violated the Fourth Amendment because Parrish, at best, only had reasonable suspicion of
past criminal conduct, which is not enough to justify a warrantless stop. (R. 35). Conversely, the
United States argues that the warranfless stop was justified by Pamsh's reasonable suspicion that
Jones had assaulted McKinney. (R. 36). The Court reluctantly disagrees.
Contrary to Jones's position that past criminal conduct does not justify a warrantless
investigatory stop under the Fourth Amendment, the Supreme Court instructs in United States v.
Hensley that investigatory stops are permitted under the Fourth Amendment provided the officer
had "reasonable suspicion, grounded in specific and articulable facts," that the person stopped
was involved in, or wanted in connection with, a completed crime. 469 U.S. 221, (1985).
However, the Court's Instruction in Hensley is restricted to felonies—it does not extend to
misdemeanors. Id. ("We need not and do not decide today whether Terry stops to investigate all
past crimes, however serious, are permitted."). Similarly, while the Sixth Circuit, relying on
Hensley, routinely upholds investigatory stops based on completed crimes, the crimes involved
are always felonies—not misdemeanors, like the fourth-degree assault at issue here. The Sixth
Circuit has not decided the issue of whether reasonable suspicion of a completed misdemeanor is
sufficient under the Fourth Amendment to justify an investigatory stop so as to be binding on this
Court. But it has addressed the issue; once m an unpublished opinion and twice in dicta.

In United States v. Halliburton, 966 F.2d 1454 (Table), 1992 WL 138433 (6th Cir. 1992),
the Sixth Circuit directly addressed whether a completed misdemeanor justified an investigatory
stop. Federal Court Security Officer, Marshal Bums stopped Fenton Halliburton to question him
about suspected misdemeanor public exposure from two weeks prior. The Court held that

ft-pp.. 22

Case 5:17-cr-00039-TBR Document 37 Filed 11/05/18 Page 7 of 9 PageID #: 128

Bun-is's stopping Halliburton was unreasonable under the Fourth Amendment because it was
based on a completed misdemeanor—not a completed felony. Halliburton, WL 138433 at *4.
Since Halliburton, The Sixth Circuit has addressed the issue twice—both times in dicta.
In United States v. Roberts, 986 F.2d 1026, (6th Cir. 1993), the Sixth Circuit held that officers
had not violated the defendant's Fourth Amendment rights for stopping him based on a
reasonable suspicion that he was drunk. In dicta, the Roberts Court stated, "[i]n Hensley, the
Supreme Court held that police may stop a person to investigate if they 'have a reasonable
suspicion, grounded in specific and articulable facts, that a person they encounter was involved
in or is wanted in connection with a completed felony,' but not for a completed misdemeanor."

United States v. Roberts, 986 F.2d 1026, 1030 (6th Cir. 1993) (emphasis added) (citation
omitted).

Similarly, in Gaddis v. Redford Twp., 364 F.3d 763, 785 (6th Cir. 2004), the Sixth Circuit
again determined that driving while drunk constitutes an ongoing crmie for Fourth Amendment
purposes. And again, in dicta and citing Roberts, the court stated that "[p]olice may also make a
stop when they have reasonable suspicion of a completed felony, though not of a mere completed
misdemeanor." Gaddis, 364 F.3d at 771 n.6 (emphasis added).

The Court notes that the Ninth and Tenth Circuits both declined to follow the Sixth
Circuit's holding in Halliburton. Instead, those courts take the position that completed
misdemeanors may justify an investigatory stop provided the government's interest in the stop
outweighs the intrusion on individual freedom. United States v. Grigg, 498 F.3d 1070, 1081 (9th
Cir. 2007); United States v. Moron, 503 F.3d 1135, 1141 (10th Cir. 2007). Frankly, this position
is appealing. It better aligns with the Court's reasoning in Hensley, and in no way runs afoul of
its holding.

/\(ip. 23

Case 5:17-cr-00039-TBR Document 37 Filed 11/05/18 Page 8 of 9 PagelD #: 129

However, district courts are obliged to follow their respective circuit courts' precedent
unless that precedent has been overturned by the court of appeals sitting in banc or by a Supreme
Court opinion. See, United States v. Forman, 990 F. Supp. 875, 882 (E.D. Mich. 1997); See also,
Lqftus v. Southeastern Pennsylvania Transportation Authority, 843 F. Supp. 981, 984 (E.D. Pa.
1994) (stating federal district courts must follow their respective circuit court's decision unless
overruled by the Supreme Court). While the Court recognizes that the Sixth Circuit has not
necessarily established binding precedent on the issue, Halliburton, in conjunction with the
dictum from Roberts and Gaddis, is enough to convince the Court that the Sixth Circuit is more
likely to find an investigative stop based on a completed misdemeanor unreasonable under the
Fourth Amendment. Thus, so must this Court.

Officer Parrish's testimony at the suppression hearing makes it clear that he stopped
Jones because he suspected him offourth-degree assault in violation ofKenfaicky Revised
Stahite 508.030. (Supp. Hearing R. 7: ^ 10) ("I got behind the vehicle and mitiated a traffic stop
to further investigate the allegations made by Ms. McKinney."). Fourth-degree assault is a
misdemeanor. Ky. Rev. Stat. § 508.030 (2). Therefore, this Court has no choice but to find that
Officer Pan-ish's investigatory stop violated the Fourth Amendment.
Because the initial stop violated Jones's Fourth Amendment rights, his subsequent arrest
was also illegal. Therefore, all evidence recovered during the stop and subsequent arrest,
including the Hi Point .380 fireann, must be suppressed as fmit of the poisonous tree. Wong Sun
v. United States, 371 U.S. 471, 485, 9 L. Ed. 2d 441, 83 S. Ct. 407 (1963).
Because the firearm and all evidence collected from the stop must be suppressed as
discussed above, to decide whether Officer Parrish had probable cause to effectuate the arrest is
unnecessary. Jones's Motion to Suppress (R. 20) is granted.

8

A-fy. 24

Case 5:17-cr-00039-TBR Document 37 Filed 11/05/18 Page 9 of 9 PagelD #: 130

CONCLUSION
Having considered the testimony and evidence presented during the suppression hearing
held on July 28,2018, and the subsequent briefing, and being otherwise sufficiently advised; IT IS
HERBY ORDERED that Defendant Jermaine Jones's Motion to Suppress (R. 20) is GRANTED.

A telephonic further proceedings is set on NOVEMBER 14, 2018 at 9:15 a.m. Central Time. The
Court shall place the call to counsel.

Thomas B. HusseII, Senior Judge

United States District Court
November 5,2018

ec: Counsel of Record

f\fp. 25

CASE

COURT

CHARGES AND POST-ARREST COMPLAINT
~0^

18I IS
"3

n.oo

•S.'-s Sf-

M. ai -nt

1st.
:v

S.&&

(P. ?
"(A M.-^

STtg

li

gsfSgg.^si

^!i§jB.tiJi

||g|jff|l|.|
sa".:§S:"3 Sin?

IBD

Ill
[q g
0 ~a

s

m

3it 111 its I

iffiljPi
a in- a-x nd.5 S o

tS-s'S

m.'siWf-'-t

os.

^§g

li!

Ill

sa'°

P3m§

^ CftsS

S .3- 5? ? 3
33"
?r->a o;Sm
mco
'5 ffi'L ?¥
ra=i

R§S
ilKII
III
§
li^SlIJ-§i I
0
<
0
m

srt
z
0

<

US.

m

R
z
t-

?

H5ii
1-S

s
m

-r it - ^ ~s. i a.

0 3 B O.gm. Q:

|l||j||jJ:
I^IJtj.1,11

liii

m s^g u o.'S^'a.

-.5^1 £.111

ig.j

^
•=&

ISO

01

c
0)

Q

Q
0
0
•^

ESS^SOO
yaamnt'noHiNoa

u

S5'3.>c:r|§:3

i'3^&j;|g§

IP'g'li^.l-Sl.?t~
II? It SII
-a -~

